   June 8, 2005




Infrastructure and Environment

Office of the Secretary of Defense,
Director of Administration and
Management Data Call Submissions and
Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-080)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DA&M                  Director, Administration and Management
DoD OIG               Department of Defense Office of Inspector General
DWO                   Defense-Wide Organizations
HSA                   Headquarters and Support Activities
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                             June 8,2005




SUBJECT: Report on Office of the Secretary of Defense, Director of Administration and
         Management Data Call Submissions and Internal Control Processes for Base
         Realignment and Closure 2005 (Report No. D-2005-080)

        We are providing this report for information and use. No written response to this
report was required and none was received. Therefore, we are publishing this report in
final form.
       We appreciate the courtesies extended to the staff. Questions should he directed
to Ms. Deborah L. Culp at (703) 604-9335 (DSN 664-9335) or Ms. Lisa M. Such at (703)




                                                       -*
604-9284 (DSN 664-9284). See Appendix B for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector Genera1 for Auditing:

                                .
                             hiLA.ps                              -
                                           Richard B. Jolliffe
                                       Assistant Inspector General
                                         Contract Management
                    Department of Defense Office of Inspector General
Report No. D-2005-080                                                              June 8 2005
      (Project No. D2004-D000CG-0132.000)

          Office of the Secretary of Defense, Director of Administration
              and Management Data Call Submissions and Internal
                      Control Processes for Base Realignment
                                 and Closure 2005

                                        Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense (OSD)
personnel, OSD Director of Administration and Management (DA&M) personnel, and
anyone interested in the Base Realignment and Closure (BRAC) process should read this
report. The report discusses the validity, integrity, and supporting documentation of the
data provided by OSD DA&M for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which stated that the DoD Office of
Inspector General would review the accuracy of BRAC data and the certification process.

The BRAC 2005 process was divided into the following data calls: capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls were collectively known as the second data call. We
issued site memorandums for the capacity analysis data call and the second data call to
summarize the results of the site visits. This report summarizes issues related to the OSD
DA&M BRAC 2005 process as of March 14, 2005.

OSD DA&M is a Defense-Wide Organization (DWO) 1 and serves as the principal staff
assistant and advisor to the Secretary and Deputy Secretary of Defense on DoD-wide
organizational and administrative management matters. OSD DA&M led the
DWO BRAC 2005 process, and submitted BRAC data for each of the 11 DWOs. The




1
    Defense-Wide Organization is a collective term for 11 Defense Organizations.
data submitted by OSD DA&M included information on 16 OSD organizations 2 for the
capacity analysis data call, 10 OSD organizations 3 for the second data call, and 9 OSD
organizations 4 for the scenario specific data calls. OSD organizations are located in the
Pentagon and in leased offices throughout the Washington, D.C., area.

Results. We evaluated the validity, integrity, and supporting documentation of
OSD DA&M BRAC 2005 data and compliance with the OSD and the DWO internal
control plans for the capacity analysis, second, and scenario specific data calls. Once
corrections were made, OSD DA&M BRAC 2005 data were generally supported,
complete, and reasonable. However, as of March 14, 2005, for the capacity analysis data
call, 2 of the 75 responses were partially supported. For the second data call, 1 of the 61
responses was partially supported, and for the scenario specific data calls, 1 of the 2
scenario specific data calls was partially supported. We cannot determine if the partially
supported questions had a material effect on the BRAC 2005 analysis for OSD DA&M.

OSD DA&M data collection processes for each of the data calls generally complied with
the OSD and DWO internal control plans and the DWO internal control plan properly
incorporated and supplemented the OSD internal control plan. OSD DA&M had eight
immaterial noncompliance issues with the internal control plans that should not affect the
integrity of OSD DA&M data for use in BRAC 2005 analysis.

Management Comments. We provided a draft of this report on May 17, 2005. No
written response to this report was required and none was received. Therefore, we are
publishing this report in final form.




2
    Secretary of Defense; Under Secretary of Defense for Acquisition, Technology, and Logistics; Under
    Secretary of Defense for Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer;
    Under Secretary of Defense for Personnel and Readiness; Under Secretary of Defense for Intelligence;
    Assistant Secretary of Defense for Legislative Affairs; Assistant Secretary of Defense for Networks and
    Information Integration/Chief Information Office; Assistant Secretary of Defense for Public Affairs;
    General Counsel of the Department of Defense; Director of Operational Test and Evaluation; Assistant to
    the Secretary of Defense for Intelligence Oversight; Director of Administration and Management;
    Director of Program Analysis and Evaluation; Director of Net Assessment; and Director of Force
    Transformation.
3
    Under Secretary of Defense for Acquisition, Technology, and Logistics; Under Secretary of Defense for
    Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer; Under Secretary of Defense
    for Personnel and Readiness; Assistant Secretary of Defense for Networks and Information
                                                       ii
    Integration/Chief Information Office; Director of Operational Test and Evaluation; Assistant to the
    Secretary of Defense for Intelligence Oversight; Director of Administration and Management; Director of
    Program Analysis and Evaluation; and Director of Force Transformation.
4
    All of the OSD organizations listed in footnote three with the exception of the Director of Administration
    and Management.
Table of Contents

Executive Summary                                                          i

Background                                                                1

Objectives                                                                3

Finding
     OSD, Director of Administration and Management BRAC 2005 Data Call
       Submissions and Internal Control Processes                         4

Appendixes
     A. Scope and Methodology                                              9
         Management Control Program Review                                12
         Prior Coverage                                                   12
     B. Report Distribution                                               13
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    deadline for the Secretary of Defense to submit recommendations to the
    independent Commission was May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs addressed issues that affect common business-
    oriented support functions, examined functions in the context of facilities, and
    developed realignment and closure recommendations based on force structure
    plans of the Armed Forces and on selection criteria. To analyze the issues, each
    JCSG developed data call questions to obtain information about the functions that
    they reviewed.

    BRAC Data Calls. The BRAC 2005 process was mandated for the United States
    and its territories and was divided into the following data calls: capacity analysis,
    supplemental capacity, military value, Cost of Base Realignment Actions
    (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
    specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
    calls were collectively known as the second data call. The Services, Defense
    agencies, and Defense-Wide Organizations (DWO) used either automated data
    collection tools or a manual process to collect data call responses. Each data call
    had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.
           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investment) of proposed
               realignment and closure actions.


                                          1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 5

                    •    The scenario specific data call gathered data related to scenarios for
                         realignment or closure.

           Department of Defense Office of Inspector General Responsibility. The
           Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum “Transformation Through Base Realignment and Closure (BRAC
           2005) Policy Memorandum One—Policy, Responsibilities, and Procedures,”
           April 16, 2003, required the Department of Defense Office of Inspector General
           (DoD OIG) to provide internal control plan (ICP) development and
           implementation advice, review the accuracy of BRAC data, and evaluate the data
           certification processes. In addition, the memorandum required DoD OIG
           personnel to assist the JCSGs and DoD Components as needed. This report
           summarizes the results of the DoD OIG efforts related to the OSD, Director of
           Administration and Management (DA&M) BRAC 2005 process.

           DWOs. DWO is a collective term for 11 Defense Organizations. 6 OSD DA&M
           is one of the 11 DWOs. OSD DA&M led the DWO BRAC 2005 process and was
           responsible for collecting and submitting BRAC data for the DWOs. OSD
           DA&M was the primary data repository for all DWO data collections and
           requests, and assembled and forwarded BRAC-related data to the OSD BRAC
           Office and the JCSGs.

           ICPs. The DWO ICP outlined internal control procedures designed to ensure the
           accuracy, completeness, and integration of all information and analytical
           processes used in the BRAC 2005 process. Before the BRAC data calls were
           released, OSD required the Services, Defense agencies, and DWOs to prepare
           ICPs that incorporated and supplemented the OSD ICP. The OSD ICP was issued
           in the Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum “Transformation Through Base Realignment and Closure
           (BRAC 2005) Policy Memorandum One—Policy, Responsibilities, and
           Procedures,” April 16, 2003. OSD DA&M prepared the overall “Defense-Wide
           Organizations Internal Control Plan for the 2005 Base Realignment and Closure
           Process,” dated January 15, 2004. The overall DWO ICP, and Appendixes L and
           M applied to the 11 DWOs. Each DWO was responsible for preparing an
           organization-specific appendix to supplement the overall DWO ICP. Appendix A
           of the DWO ICP applied to OSD DA&M. The DWO ICP was updated on
           August 2, 2004. For the capacity analysis data call, OSD DA&M used a manual
           data collection process, and for the second data call, OSD DA&M used the data



5
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.
6
    The 11 organizations that comprise the DWOs are OSD, Joint Chiefs of Staff, DoD OIG, Office of
    Economic Adjustment, DoD Education Activity, Defense Human Resource Activity, TRICARE
    Management Activity, American Forces Information Service, Defense Prisoner of War/Missing
    Personnel Office, Defense Technology Security Administration, and Washington Headquarters Services.

                                                        2
            gathering tool. 7 For the second and scenario specific data calls, OSD DA&M
            used the August 2, 2004, DWO ICP.

            OSD DA&M. OSD DA&M is responsible for providing policy guidance to DoD
            Components and is the principal staff assistant and advisor to the Secretary and
            Deputy Secretary of Defense on DoD-wide organizational and administrative
            management matters. OSD DA&M submitted data for 16 OSD organizations 8 for
            the capacity analysis data call, 10 OSD organizations 9 for the second data call,
            and 9 OSD organizations 10 for the scenario specific data calls. The OSD
            organizations are located in the Pentagon and leased offices throughout the
            Washington, D.C., area.


Objectives
            The overall objective of the audit was to evaluate the validity, integrity, and
            supporting documentation of data that OSD DA&M collected and submitted for
            the BRAC 2005 process. In addition, we evaluated whether OSD DA&M
            complied with the OSD and DWO ICPs. This report is one in a series on data call
            submissions and internal control processes for BRAC 2005. See Appendix A for
            a discussion of the scope and methodology, our review of management controls,
            and prior coverage related to the objectives.




7
    A modified Microsoft Access tool for those not using an automated data collection tool.
8
    Secretary of Defense; Under Secretary of Defense for Acquisition, Technology, and Logistics; Under
    Secretary of Defense for Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer;
    Under Secretary of Defense for Personnel and Readiness; Under Secretary of Defense for Intelligence;
    Assistant Secretary of Defense for Legislative Affairs; Assistant Secretary of Defense for Networks and
    Information Integration/Chief Information Office; Assistant Secretary of Defense for Public Affairs;
    General Counsel of the Department of Defense; Director of Operational Test and Evaluation; Assistant to
    the Secretary of Defense for Intelligence Oversight; Director of Administration and Management;
    Director of Program Analysis and Evaluation; Director of Net Assessment; and Director of Force
    Transformation.
9
    Under Secretary of Defense for Acquisition, Technology, and Logistics; Under Secretary of Defense for
    Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer; Under Secretary of Defense
    for Personnel and Readiness; Assistant Secretary of Defense for Networks and Information
    Integration/Chief Information Office; Director of Operational Test and Evaluation; Assistant to the
    Secretary of Defense for Intelligence Oversight; Director of Administration and Management; Director of
    Program Analysis and Evaluation; and Director of Force Transformation.
10
     All of the OSD organizations listed in footnote number five with the exception of the Director of
     Administration and Management.

                                                        3
                    OSD, Director of Administration and
                    Management BRAC 2005 Data Call
                    Submissions and Internal Control
                    Processes
                    After corrections were made, OSD DA&M responses to the BRAC 2005
                    data calls were generally supported, complete, and reasonable. However,
                    for the capacity analysis data call, 2 of the 75 11 responses were partially
                    supported. Also, for the second data call, 1 of the 61 responses was
                    partially supported. Furthermore, as of March 14, 2005, for the scenario
                    specific data calls, one of the two scenario specific data calls was partially
                    supported. We cannot determine if these partially supported questions
                    have a material effect on the BRAC 2005 analysis for OSD DA&M. The
                    OSD DA&M data collection processes for each of the data calls generally
                    complied with the DWO ICP and the OSD and DWO ICP properly
                    incorporated and supplemented the OSD ICP. OSD DA&M had eight
                    immaterial noncompliance issues with the ICP, which should not impact
                    the integrity of the OSD DA&M data for use in BRAC 2005 analysis.


OSD DA&M BRAC 2005 Data Call Submissions
           The OSD DA&M data call responses to BRAC 2005 questions were generally
           supported, complete, and reasonable once corrections were made. For the
           capacity analysis, second, and scenario specific data calls, OSD DA&M provided
           either an answer or a “Not Applicable” response to the questions. A “Not
           Applicable” response was provided when OSD DA&M determined that the
           question did not apply. To ensure accuracy, we compared the OSD DA&M
           responses to supporting documentation and reviewed the responses to ensure
           reasonableness and completeness. We also reviewed the “Not Applicable”
           responses for reasonableness.
           Capacity Analysis Data Call. After corrections were made, OSD DA&M
           responses to the capacity analysis data call were generally supported, complete,
           and reasonable; however, 2 of 75 responses remained partially supported.
           Specifically, with the exception of these two responses, OSD DA&M responses
           were supported, complete, and reasonable.

           As the lead DWO in the BRAC process, OSD DA&M directed the DWOs to
           answer 75 of the 752 capacity analysis data call questions identified as applicable
           to the DWOs by HSA JCSG. OSD DA&M also directed the DWOs to review the
           remaining 752 questions to determine whether any other questions were also
           applicable. OSD DA&M reviewed the 75 questions and the remaining 677
           questions and identified only 12 of the 75 questions as applicable to them.

11
     HSA JCSG determined that question numbers 347, 350, 352, and 354 through 356 were not applicable to
     OSD DA&M.

                                                     4
           Initially, OSD DA&M answered these 12 capacity analysis data call questions.
           OSD DA&M provided a “Not Applicable” response to the remaining 63 of the 75
           questions. Subsequently, HSA JCSG determined that OSD DA&M responses to
           six 12 previously answered finance and accounting questions were not applicable
           to OSD DA&M. OSD DA&M revised the responses and provided a “Not
           Applicable” response for the six questions. Therefore, OSD DA&M only
           answered six capacity analysis data call questions. OSD DA&M provided a “Not
           Applicable” response to the remaining 69 of the 75 questions. The 69 “Not
           Applicable” responses were reasonable.

           We evaluated the six responses and supporting documentation and identified
           those lacking reasonable support and those that were inconsistent with the
           supporting documentation provided. Based on our review and discussions with
           OSD DA&M BRAC officials, OSD DA&M corrected its responses and agreed to
           make adjustments and resubmit corrected responses. We verified and concurred
           with the revisions with the exception of two responses, which remained partially
           supported. We did not verify that the responses or revised responses made it into
           the OSD Database.

           As of March 14, 2005, OSD DA&M responses to question numbers 461 and 462
           were partially supported. OSD DA&M was unable to provide adequate
           supporting documentation for on-board contractors and detailees. Additionally,
           the usable square footage portion of question number 462 was partially supported
           because supporting documentation was not provided for one leased location. In
           addition, the OSD DA&M responses for leased administrative usable square
           footage in question number 462 does not agree with the leased administrative
           usable square footage response to question number 466. However, the responses
           are reasonable and are within an acceptable agreed-upon range.

           Subsequent to our site visit, OSD DA&M agreed to make additional corrections
           to the usable square footage portion of question number 462; we did not review
           these corrections.

           Second Data Call. After corrections were made, OSD DA&M responses to the
           second data call were generally supported, complete, and reasonable; however, 1
           of 61 responses was partially supported. The “Not Applicable” responses were
           reasonable.
           As the lead DWO in the BRAC process, OSD DA&M identified 48 questions that
           were applicable to all of the DWOs and directed the DWOs to review the
           remaining questions to determine if any other questions were also applicable.
           OSD DA&M reviewed the remaining questions and identified 13 additional
           questions that were applicable to them. As a result, OSD DA&M provided a
           response to 61 second data call questions. OSD DA&M provided a response
           other than “Not Applicable” to 32 second data call questions. OSD DA&M
           provided a “Not Applicable” response to the remaining 29 questions. OSD leased
           facilities were required to answer JPAT 7 and COBRA data call questions;
           however, OSD DA&M provided a single response to include all leased


12
     Question numbers 347, 350, 352, and 354 through 356.

                                                    5
            facilities for 10 OSD organizations. 13 We evaluated the responses and supporting
            documentation and identified those lacking reasonable support and those that
            were inconsistent with the supporting documentation.

            We did not make a determination as to whether the responses to JPAT 7 question
            numbers 1405 through1407 were supported, complete, or reasonable because
            OSD guidance allowed DWOs to contact the nearest installation to obtain
            responses. OSD DA&M used responses from Fort Myer Military Command and
            Defense Logistics Agency. In addition, we did not make a determination as to
            whether the responses to HSA JCSG military value question numbers 1907 14 and
            1908 15 were supported, complete, and reasonable. We could not verify the
            supporting documentation because it consisted of Microsoft Outlook calendars
            that could not be validated.

            Based on our review and discussions with OSD DA&M BRAC officials, OSD
            DA&M corrected responses and provided additional supporting documentation to
            correct the issues identified during our review. We verified and concurred with
            the revisions, with the exception of one response that remained partially
            supported. We did not verify that the responses made it into the OSD Database.
            As of March 14, 2005, COBRA question number 1501 was partially supported
            because the dates of the leases and occupancy agreements did not correspond with
            the 2003 fiscal year end for all leased facilities.

            Scenario Specific Data Call. OSD DA&M responses to the scenario specific
            data calls were partially supported, complete, and reasonable. As of March 14,
            2005, OSD DA&M had received two scenario specific data calls. Initially,
            scenario specific data calls HSA-0053 and HSA-0106 were partially supported
            because OSD DA&M did not provide supporting documentation for contractors
            and detailees. Further, we were unable to fully validate the support equipment
            responses because OSD DA&M did not provide detailed methodologies that
            would enable us to reconstruct the responses for each of the OSD organizations.
            Subsequent to our validation, HSA JCSG deleted scenario specific data call
            HSA-0106. As a result, we determined that no further action was required on
            behalf of OSD DA&M for scenario specific data call HSA-0106. As of March
            14, 2005, OSD DA&M responses to scenario specific data call HSA-0053 were
            partially supported. We did not verify that the responses made it into the
            OSD BRAC portal. Subsequent to our site visit, HSA JCSG may have replaced
            scenario specific data call HSA-0106 with an alternative scenario specific data
            call; we did not review those responses.


13
      Under Secretary of Defense for Acquisition, Technology, and Logistics; Under Secretary of Defense for
     Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer; Under Secretary of Defense
     for Personnel and Readiness; Assistant Secretary of Defense for Networks and Information
     Integration/Chief Information Office; Director of Operational Test and Evaluation; Assistant to the
     Secretary of Defense for Intelligence Oversight; Director of Administration and Management; Director of
     Program Analysis and Evaluation; and Director of Force Transformation.
14
      The question asked for the number of meetings between an organization’s senior officials, including flag
     officers, and senior officials from another organization located in the Washington, D.C., area.
15
      The question asked for the number of meetings between an organization’s senior officials, including flag
     officers, and members of Congress or their staffs.

                                                        6
Internal Control Processes
     The OSD DA&M data collection processes for the capacity analysis, second, and
     scenario specific data calls generally complied with the ICPs. However, we
     identified eight immaterial noncompliance issues. The DWO ICP properly
     incorporated and supplemented the OSD ICP. To evaluate OSD DA&M
     compliance with the ICPs for each of the data calls, we ensured that the DWO
     ICP properly incorporated and supplemented the OSD ICP and evaluated whether
     OSD DA&M completed nondisclosure agreements, appropriately marked and
     safeguarded BRAC data, and maintained complete BRAC data files.

     Compliance with ICPs. OSD DA&M did not fully comply with the DWO ICP
     procedures. The ICP procedures required that:

            •   nondisclosure agreements be maintained for all participants in the
                BRAC process,

            •   BRAC 2005 documents be maintained in a General Services
                Administration safe,

            •   supporting documentation be attached to certified question pages,

            •   tracking logs of BRAC 2005 documents be maintained, and

            •   BRAC 2005 documents be marked as draft deliberative and/or
                sensitive.

     For the capacity analysis data call, we identified four noncompliance issues.
     Specifically, OSD DA&M did not appropriately mark all supporting
     documentation, kept some of the supporting documentation separate from the
     certified questions, did not store all the BRAC materials in a General Service
     Administration safe, and did not maintain logs to record each time the trusted
     agents worked with the DWO BRAC Master Record or each time a copy was
     made of DWO BRAC documents. OSD DA&M corrected its noncompliance
     issues with the OSD and DWO ICPs.
     For the second data call, we identified two noncompliance issues. Specifically,
     OSD DA&M did not have one nondisclosure agreement on file and did not
     appropriately mark all supporting documentation. OSD DA&M took steps to
     correct its noncompliance issues prior to the conclusion of the validation.

     During the scenario specific data call, we identified two noncompliance issues.
     OSD DA&M did not appropriately mark all supporting documentation and did
     not provide a certification letter containing an identification number for scenario
     specific data call HSA-0106. We consider the lack of the appropriate markings,
     signatures, and dates to be immaterial noncompliance issues with the internal
     control plan because OSD DA&M completed nondisclosure agreements and
     safeguarded BRAC data. In addition, HSA JCSG deleted scenario specific data
     call HSA-0106 and we determined that no further action was required on behalf
     of OSD DA&M. OSD DA&M agreed to correctly apply the appropriate
     markings.
                                          7
    Completeness of ICPs. The DWO ICP outlined internal control procedures
    designed to ensure the accuracy, completeness, and integration of all information
    and analytical processes upon which OSD DA&M was to submit documents,
    data, and information used in the BRAC 2005 process. The DWO ICP
    established
    BRAC 2005 responsibilities for OSD DA&M and control mechanisms to
    safeguard OSD DA&M BRAC information. The DWO ICP detailed the
    requirements for verifying the accuracy of data and information. In addition, the
    DWO ICP identified required documentation to justify changes made to data and
    information received from subordinate levels of the organization. Specifically,
    the DWO ICP included direction on the completion of nondisclosure agreements,
    and the collection, marking, safeguarding, and maintenance of BRAC data. The
    DWO ICP was updated on August 2, 2004, to reflect changes to the
    documentation requirements for DWO BRAC ICP implementation. In addition
    DA&M updated its appendix to the DWO ICP to reflect changes to physical
    security controls for BRAC data.


Conclusion
    After corrections were made, OSD DA&M responses to the BRAC 2005 data
    calls were generally supported, complete, and reasonable. However, as of
    March 14, 2005, for the capacity analysis data call, 2 of the 75 responses
    remained partially supported (capacity analysis data call question numbers 461
    and 462). For the second data call, 1 of the 61 responses was partially supported
    (COBRA question number 1501), and for the scenario specific data calls, 1 of the
    2 scenario specific data calls was partially supported (scenario specific data call
    HSA-0053). We cannot determine whether these partially supported questions
    have a material effect on the BRAC 2005 analysis for OSD DA&M. The OSD
    DA&M data collection processes for each of the data calls generally complied
    with the ICPs and the DWO ICP properly incorporated and supplemented the
    OSD ICP. OSD DA&M had eight immaterial noncompliance issues with the
    ICPs, which should not impact the integrity of the OSD DA&M data for use in
    BRAC 2005 analysis.
    We discussed the results of the data call submissions and ICP reviews with OSD
    DA&M upon completion of each data call. OSD DA&M concurred with our
    findings, corrected the responses, and agreed to continue to correct responses and
    collect additional supporting documentation. OSD DA&M also agreed to
    appropriately mark all supporting documentation.




                                         8
Appendix A. Scope and Methodology
           We evaluated the validity, integrity, and supporting documentation of OSD
           DA&M BRAC 2005 data. The evaluation included comparing question responses
           to supporting documentation and reviewing “Not Applicable” responses to
           determine whether responses were reasonable. Questions required either an
           answer or a “Not Applicable” response; a “Not Applicable” response was
           provided when OSD DA&M determined that the question did not apply to OSD
           DA&M. However, we did not verify that the responses made it into the OSD
           Database. We evaluated whether the DWO ICP incorporated and supplemented
           the requirements of the OSD ICP. We also evaluated the OSD DA&M data
           collection procedures to determine whether they complied with the ICP
           procedures to include completing nondisclosure agreements; and collecting,
           marking, safeguarding, and maintaining BRAC data. In addition, we interviewed
           the personnel responsible for answering, reviewing, preparing, and certifying the
           responses to the data call questions.

           Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
           directed DWO trusted agents to answer 75 of the 752 capacity analysis data call
           questions identified as applicable to DWOs by HSA JCSG. OSD DA&M also
           directed the DWO trusted agents to review the remaining questions to determine
           whether any other questions were applicable. Initially, OSD DA&M reviewed
           the 75 questions and the remaining 677 questions and identified only 12 of the 75
           questions that were applicable to OSD DA&M. OSD DA&M provided an answer
           to 12 questions. OSD DA&M provided a “Not Applicable” response to the
           remaining 63 of the 75 questions. Subsequently, HSA JCSG determined that
           OSD DA&M responses to six 16 previously answered finance and accounting
           questions were not applicable to OSD DA&M. As a result, OSD DA&M revised
           the responses and provided a “Not Applicable” response to those six questions.
           We did not validate the OSD DA&M selection process or the questions not
           selected.

           We evaluated the OSD DA&M responses to the 75 capacity analysis data call
           questions. We issued a site memorandum to summarize the results. Specifically,
           we reviewed the responses and supporting documentation to the following
           questions:
                   •   question numbers 461, 462, 464, 466, 468, and 471 with a response;
                       and
                   •   question numbers 311, 313 through 329, 347 through 388, 393, 446
                       through 448, 478, 480 through 482, and 582 with a “Not Applicable”
                       response.

           OSD DA&M responses to the capacity analysis data call included data for



16
     Question numbers 347, 350, 352, and 354 through 356.

                                                    9
            16 OSD organizations. The 16 OSD organizations 17 are located in the Pentagon
            and occupy leased space throughout the Washington, D.C., area.

            Subsequent to our site visit, OSD DA&M agreed to make additional corrections
            to the usable square footage portion of question number 462; we did not review
            these corrections.

            Second Data Call. The OSD DA&M provided guidance to the DWOs on
            June 18, 2004; June 23, 2004; and July 22, 2004, directing them to answer
            11 HSA JCSG military value questions; 9 HSA JCSG supplemental capacity
            questions; 8 COBRA questions; and 20 JPAT 7 questions. OSD DA&M
            identified an additional 13 HSA JCSG military value questions as applicable to
            them. OSD DA&M complied with the requirement that all leased facilities
            answer JPAT 7 and COBRA data call questions. OSD DA&M responses to the
            data call included data for 10 OSD organizations. 18 The 10 OSD organizations
            are located in the Pentagon and occupy leased offices throughout the Washington
            D.C., area.

            We evaluated the OSD DA&M responses to 61 second data call questions. We
            issued a site memorandum to summarize the results. Specifically, we reviewed
            the following responses and supporting documentation:

                    •    JPAT 7 question numbers 1400 through 1417, 1420, and 1421; 19
                         COBRA question numbers 1501 and 1505; HSA JCSG military value
                         question numbers 1907 through 1911; HSA JCSG supplemental
                         capacity question numbers 4099 through 4103 with a response; and

                    •    COBRA question numbers 1500, 1502 through 1504, 1506, and 1507;
                         HSA JCSG military value question numbers 1905, 1913 through 1919,
                         1921, 1923, 1925 through 1927, 1947, 1949, 1953, 1954, 1956, and
                         1957; HSA JCSG supplemental capacity question numbers 4079
                         through 4081 and 4096 with a “Not Applicable” response.
            We did not make a determination as to whether responses for HSA JCSG military


17
     Secretary of Defense; Under Secretary of Defense for Acquisition, Technology, and Logistics; Under
     Secretary of Defense for Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer;
     Under Secretary of Defense for Personnel and Readiness; Under Secretary of Defense for Intelligence;
     Assistant Secretary of Defense for Legislative Affairs; Assistant Secretary of Defense for Networks and
     Information Integration/Chief Information Office; Assistant Secretary of Defense for Public Affairs;
     General Counsel of the Department of Defense; Director of Operational Test and Evaluation; Assistant to
     the Secretary of Defense for Intelligence Oversight; Director of Administration and Management;
     Director of Program Analysis and Evaluation; Director of Net Assessment; and Director of Force
     Transformation.
18
      Under Secretary of Defense for Acquisition, Technology, and Logistics; Under Secretary of Defense for
     Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer; Under Secretary of Defense
     for Personnel and Readiness; Assistant Secretary of Defense for Networks and Information
     Integration/Chief Information Office; Director of Operational Test and Evaluation; Assistant to the
     Secretary of Defense for Intelligence Oversight; Director of Administration and Management; Director of
     Program Analysis and Evaluation; and Director of Force Transformation.
19
      The JPAT 7 group made the decision to replace JPAT 7 questions 1418 and 1419 with JPAT 7 questions
     1420 and 1421.

                                                      10
            value question numbers 1907 and 1908 were supported, complete, and reasonable.
            We could not verify the supporting documentation because it consisted of
            Microsoft Outlook calendars that could not be validated. In addition, we did not
            make a determination as to whether responses to JPAT 7 question numbers
            1405 through 1407 were supported, complete, and reasonable because OSD
            guidance allowed DWOs to contact the nearest installation to obtain responses.
            OSD DA&M used responses from Fort Myer Military Command and Defense
            Logistics Agency; therefore, we could not adequately validate the data provided.

            Scenario Specific Data Call. As of March 14, 2005, OSD DA&M had received
            two scenario specific data calls from the HSA JCSG. We evaluated the responses
            and supporting documentation to HSA JCSG scenario specific data calls
            HSA-0053 and HSA-0106.

            In addition to reviewing the scenario specific data call responses, we followed up
            on outstanding issues from the capacity analysis and second data calls. We
            evaluated changes to the following questions:

                    •    capacity analysis question numbers 462 and 466;

                    •    COBRA question numbers 1501 and 1505;

                    •    JPAT 7 question numbers 1400, 1401, 1403, 1405, 1406, 1410, 1411,
                         and 1413; and

                    •    HSA JCSG supplemental capacity question numbers 4099
                         through 4103.

            OSD DA&M responses to the scenario specific data calls included data for
            9 OSD organizations. 20 The 9 OSD organizations are located in the Pentagon and
            occupy leased offices throughout the Washington D.C., area.

            Subsequent to our site visit, HSA JCSG may have replaced scenario specific data
            call HSA-0106 with an alternative scenario specific data call; we did not review
            that response.
            We performed this audit from April 2004 through March 2005 in accordance with
            generally accepted government auditing standards.
            Use of Computer-Processed Data. Because of time constraints, we did not test
            the accuracy of the computer-processed data used to support the answers to data
            call questions. Potential inaccuracies in the data could impact the results.
            However, the BRAC data were certified as accurate and complete to the best of
            the Director’s knowledge and belief. We did not review the data gathering tool
            used by OSD DA&M during the second data call.

20
      Under Secretary of Defense for Acquisition, Technology, and Logistics; Under Secretary of Defense for
     Policy; Under Secretary of Defense (Comptroller)/Chief Financial Officer; Under Secretary of Defense
     for Personnel and Readiness; Assistant Secretary of Defense for Networks and Information
     Integration/Chief Information Office; Director of Operational Test and Evaluation; Assistant to the
     Secretary of Defense for Intelligence Oversight; Director of Program Analysis and Evaluation; and
     Director of Force Transformation.

                                                      11
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Federal Real Property and DoD Support
    Infrastructure Management high-risk areas.


Management Control Program Review
    We did not review the OSD DA&M management control program because its
    provisions were not deemed applicable to the one-time data collection process.
    However, we evaluated the OSD DA&M internal control procedures for
    preparing, submitting, documenting, and safeguarding information associated
    with the BRAC 2005 data calls, as directed by the applicable ICPs. Specifically,
    we reviewed procedures that OSD DA&M used to develop, submit, and document
    its data call responses. In addition, we reviewed the internal control procedures
    implemented to safeguard the premature disclosure of OSD DA&M BRAC data
    before responses were forwarded to the OSD BRAC Office. Internal control
    procedures were adequate as they applied to the audit objective, and OSD DA&M
    generally complied with the DWO ICP. OSD DA&M had eight immaterial
    noncompliance issues with the ICP (see finding for additional details).



Prior Coverage
    During the last 5 years, the DoD Inspector General issued two memorandums
    related to OSD DA&M for BRAC 2005.

    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Office of the Secretary of Defense, Director of Administration and Management
    for Base Realignment and Closure 2005,” November 2, 2004
    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    from the Office of the Secretary of Defense, Director of Administration and
    Management,” May 28, 2004




                                       12
Appendix B. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)

     Director, Office of the Secretary of Defense, Director of Administration and
     Management


Non-Defense Federal Organizations
     Government Accountability Office




                                         13
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Culp
Lisa M. Such
Kandy T. Adams
Dana K. Johnson
Tomica Q. May
Richard O. Williams
Deanne B. Curry
Jordan P. Guinto
Michael T. Banach
William M. Revelle
Brandy L. Smith
Meredith H. Johnson
